            Smithsonian Institution
            Office of the Inspector General


            In Brief                              Development and Membership
                                                  Information System
                                                  Report Number A-06-08, May 16, 2007


Why We Did This Evaluation           What We Found

The Federal Information Security     The Development and Membership Information System (DMIS) is a commercial
Management Act of 2002               off-the-shelf information system application that is used by the Office of
(FISMA) directs the Office of the    Development and staff across the Institution to support constituency research,
Inspector General to annually        gift recording, membership, and other related development services. The data in
evaluate the information security    DMIS is confidential because it contains information relating to Smithsonian
program of the Institution. The      Institution donors, prospects, and members.
Institution voluntarily complies
with FISMA requirements              We identified several areas in which adequate controls have not been documented
because it is consistent with its    and put in place. For instance, standard security configuration baselines have not
strategic goals. FISMA outlines      been implemented and account administration controls are weak. As a result of
federal information security         failing to implement standard configuration baselines, many areas of weakness
compliance criteria, including the   exist that would likely have been addressed or mitigated had one been
requirement for a review of a        implemented.
subset of systems as part of the
annual independent assessment        Regarding account administration controls, we found that Administrators are
by the Institution’s Inspector       logging into the system through a shared Administrator account rather than
General. This report covers the      having each user assigned an individual ID so that server actions can be tracked
evaluation of the DMIS technical     and user accountability can be established. The use of shared or group accounts
security controls and supports the   minimizes or eliminates the effectiveness of audit trails, because actions cannot be
Smithsonian Institution Office of    tied back to a single individual. Individuals who use group accounts or share a
the Inspector General (OIG)          single ID could potentially perform unauthorized or inappropriate activities
annual FISMA evaluation of the       within the system that could not be tied back to them.
information security controls
implemented by the Institution.      Without adequate procedures to ensure that configuration baselines are in place
                                     over the Institution’s major information systems or account administration
What We Recommended                  controls are implemented, the confidentiality, availability, and integrity of
                                     Institution systems and related data may be at greater risk than management is
We made recommendations to           willing to accept.
strengthen the confidentiality,
availability, and integrity of the
information on DMIS and to
enhance audit trails and user
accountability.

Management fully concurred with
the report findings and
recommendations. Management
has planned or taken action that
will mitigate the identified
weaknesses.
                                     For additional information or a copy of the full report, contact the Office of
                                     the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
                               REPORT ON REVIEW OF
                                 FISCAL YEAR 2006
                  DEVELOPMENT AND MEMBERSHIP INFORMATION SYSTEM
                             SMITHSONIAN INSTITUTION
                         OFFICE OF THE INSPECTOR GENERAL




Cotton & Company LLP
Auditors ·Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
www.cottoncpa.com
                                              CONTENTS

Section                                                                     Page
Purpose                                                                      1

Background                                                                   1

Objectives, Scope and Methodology                                            2

Summary of Results:
   1. Standard Security Configuration Baselines have not Been Implemented    4
   2. DMIS Account Administration Controls are Weak                          5

   Summary of Management Response                                            6

   Office of the Inspector General Comments                                  6

Appendix – Management Response                                               7
                                  REPORT ON REVIEW OF
                                    FISCAL YEAR 2006
                     DEVELOPMENT AND MEMBERSHIP INFORMATION SYSTEM
                                SMITHSONIAN INSTITUTION
                            OFFICE OF THE INSPECTOR GENERAL


Cotton & Company LLP conducted an audit of the Smithsonian Institution’s Development and
Membership Information System (DMIS) technical security controls in support of the Office of the
Inspector General’s overall responsibilities related to Title III of the 2002 E-Government Act, also known
as the Federal Information Security Management Act.

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal Information
Security Management Act of 2002 (FISMA), was enacted to strengthen the security of federal
government information systems. Although the E-Government Act of 2002 does not apply to the
Institution, the Institution supports the information security practices required by the Act because they are
consistent with and advance the Institution’s mission and strategic goals.

FISMA outlines federal information security compliance criteria, including the requirement for an annual
independent assessment by the Institution’s Inspector General. This report covers the evaluation of the
DMIS technical security controls and supports the Smithsonian Institution Office of the Inspector
General (OIG) annual FISMA evaluation of the information security controls implemented by the
Institution.

BACKGROUND

FISMA, Office of Management and Budget (OMB) regulations, and National Institute of Standards and
Technology (NIST) guidance outline minimum security requirements for federal information security
programs. These include:

     • Annual System Self-Assessments. NIST’s Security Self Assessment Guide for Information
       Technology Systems contains specific control objectives and techniques against which a system
       can be tested and measured. Performing a self-assessment and mitigating any of the weaknesses
       found in the assessment is an effective way to determine if the system or the information it
       contains is adequately secured and protected from loss, misuse, unauthorized access, or
       modification. OMB guidelines require organizations to use the NIST self-assessment tool
       annually to evaluate each of their major systems.

     • Certification and Accreditation. NIST’s Guide for the Security Certification and Accreditation
       of Federal Information Systems states that systems should be certified and accredited. A
       certification is “a comprehensive assessment of management, operational, and technical security
       controls in an information system, made in support of security accreditation, to determine the
       extent to which the controls are implemented correctly, and operating as intended.” NIST
       guidance also discusses system accreditation, which is “the official management decision to
       authorize operation of an information system and to explicitly accept the risk to operations,
       assets, or individuals based on the implementation of the agreed-upon set of security controls.”
       Organizations should use the results of the certification to reassess their risks and update system
       security plans to provide the basis for making security accreditation decisions.
                                                    1
    • System Security Plan. NIST’s Guide for Developing Security Plans for Information Technology
      Systems requires that all major application and general support systems be covered by a security
      plan. The plan provides an overview of the security requirements of a system and describes
      controls in place or planned for meeting those requirements. Additionally, the plan defines
      responsibilities and the expected behavior of all individuals accessing the system. The NIST
      guide also instructs that the security plan should describe the management, operational, and
      technical controls the organization has implemented to protect the system. Among other things,
      these controls include user identification and authentication procedures, contingency/disaster
      recovery planning, application software maintenance, data validation, and security awareness
      training.

OBJECTIVES, SCOPE, AND METHODOLOGY

On behalf of the OIG, Cotton & Company performed an independent audit of DMIS. We conducted this
audit in accordance with Generally Accepted Government Auditing Standards, 2006 Revision,
promulgated by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence that provides a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This report is intended to
meet the objectives described below and should not be used for other purposes.

DMIS, a commercial off-the-shelf application based on the Sage Software product “Millennium,” is used
by the Office of Development and staff across the Institution to support, manage, and control constituency
research, gift recording, membership, and other related development services. DMIS information is
confidential, because it contains names and addresses of donors, prospects and members, and in some
cases credit card information. It also contains confidential information about interactions with donors,
prospects, and members and other giving information.

The objectives of this independent audit were to evaluate and report on the existence and effectiveness of
technical security controls over DMIS and to determine if baselines had been adequately documented and
implemented over the DMIS operating system and database. To accomplish these objectives, we
performed detailed reviews of the DMIS Oracle (Oracle 9i) database and Windows 2003 server
supporting the database. In addition, we performed a high-level review of available certification and
accreditation (C&A) documentation, including the DMIS:

        •       System Security Plan
        •       Plan of Action and Milestones (POA&M)
        •       Risk Assessment
        •       Certification and Accreditation Letters
        •       Documented NIST SP 800-53 Mandatory Controls

For the Oracle database, we conducted interviews with the DMIS project manager and database
administrator and performed a security configuration review of the DMIS Oracle 9i database that serves
as the back-end for the application. We conducted the database review in two phases.

        •       In the first phase, we reviewed OCIO’s Oracle security baseline, Security Settings for
                Oracle Servers. This document outlines recommended security settings for Oracle
                database installations at the Institution.

                                                     2
        •       In the second phase, we compared the current security configuration of the DMIS Oracle
                9i database to baselines from the Institution and the Center for Internet Security’s (CIS)
                Oracle benchmark. We also reviewed the DMIS baseline configuration using an
                automated database scanning tool (AppDetective).

DMIS consists of four Windows servers: web server, database server, reporting server, and document
server. Our review focused on the database server’s operating system running Windows 2003. Audit
procedures consisted of interviewing the DMIS project manager and server administrator and completing
a detailed configuration review of the server’s operating system.

Finally, we reviewed DMIS C&A documentation as part of the overall FISMA evaluation to determine if
it complied with Institution, NIST, and OMB criteria in content and form. At a high level we compared
the DMIS system security plan to NIST Special Publication (SP) 800-18, Developing Security Plans for
Information Technology Systems and OMB Circular A-130, Appendix III, Security of Federal Automated
Information Resources to verify key requirements were being addressed.

In addition, we compared the DMIS POA&M to the Institution’s Technical Standard and Guidelines, IT-
930-01; NIST SP 800-65, Integrating IT Security into the Capital Planning and Investment Process;
OMB Circular A-130, Appendix III; and OMB Memorandum M-02-01, Guidance for Preparing and
Submitting Security Plans of Action and Milestones.

RESULTS

DMIS received re-authorization to operate in August 2006 after completion of a formal recertification and
reaccredidation process. As a result of the re-authorization, management updated the DMIS system
security plan, POA&M, and other supporting documentation which were reviewed during the overall
FISMA evaluation (see OIG’s FY 2006 FISMA Audit of the Smithsonian Institution’s Information
Security Program, Audit Report Number A-06-05). Although our overall review of the Institution’s C&A
documentation did not identify any significant issues with the C&A process or more specifically the
DMIS C&A documentation, we did identify two issues in the overall FISMA evaluation report which
were in part supported by DMIS weaknesses and made recommendations on those issues.

Specifically, as noted in the FY2006 FISMA evaluation report, the DMIS system security plan did not
include or make reference to common security controls; however, these controls were identified in a
separate document. Additionally, the report noted that controls were not adequate to ensure standard
security configuration baselines had been implemented on the Institution’s major applications in
accordance with Institution policy. In fact, DMIS was an example of a system on which baselines were
not implemented.

This report documents the results of technical testing conducted on the DMIS Windows operating system
and Oracle database which support the DMIS web server as well as our associated recommendations. We
noted several areas in which adequate controls have not been documented and put in place. For instance,
standard security configuration baselines have not been implemented, and account administration controls
are weak.




                                                    3
Standard Security Configuration Baselines Have Not Been Implemented

NIST SP 800-70, Security Configuration Checklists Program for IT Products, states:

        A security configuration checklist (sometimes called a lockdown or hardening guide or
        benchmark) is in its simplest form a series of instructions for configuring a product to a
        particular security level (or baseline)….The use of well-written, standardized checklists
        can markedly reduce the vulnerability exposure of IT products. Checklists may be
        particularly helpful to small organizations and individuals that have limited resources for
        securing their systems.

The Institution’s OCIO had developed, documented, and posted on the Institution’s intranet baselines for
use by system owners when configuring their systems. In addition, OCIO developed and documented
IT-960-TN16, which states:

        System owners must use established OCIO baseline build documents and obtain the
        appropriate approvals prior to installing or updating the operating system for application,
        database, and web servers to be placed on SInet.

The Institution’s standard security configuration baselines have not been implemented. Individuals
responsible for administration of DMIS were aware of the standard security configuration baselines
distributed by OCIO and had included them in the DMIS POA&M as a weakness. Our review of the
DMIS POA&M noted that management identified timelines for implementing the baselines, as follows:

                      Reporting Server:        September 30, 2006
                      Document Server:         December 31, 2006
                      Database Server:         March 31, 2007
                      Web Server:              June 30, 2007

Further, these baselines have not been implemented as of the date of this report. As a result of failing to
implement standard configuration baselines, many areas of weakness exist that would likely have been
addressed or mitigated with the implementation of a standard security configuration baseline:

        •       The latest patchset had not been applied.
        •       Strong database password controls have not been implemented.
        •       Database-level auditing controls have not been enabled.

In addition, our review of the Windows 2003 server supporting the Oracle database identified weaknesses
in the following areas, which again would likely have been addressed or mitigated if a standard security
configuration baseline were in place over that server:

        •       Strong OS password controls have not been implemented.
        •       OS-level logging and auditing controls have not been implemented.
        •       Security policies are weak.
        •       File and registry permissions are not configured appropriately.
        •       Unnecessary services are identified as running on the server.

Without adequate procedures to ensure that configuration baselines are in place over the Institution’s
major information systems, the confidentiality, availability, and integrity of Institution systems and
related data may be at greater risk than management is willing to accept.

                                                      4
        1. We recommend the DMIS System sponsor/owner promptly implement standard security
           configuration baselines for the DMIS Oracle database and for each server supporting DMIS,
           as soon as practicable. In addition, the DMIS system sponsor/owner should document on the
           baseline where recommended security controls have not been implemented and provide valid
           business reasons, and include the completed baseline in the system security plan as part of the
           C&A package.

DMIS Account Administration Controls Are Weak

Controls are not adequate to ensure that individuals logging into the DMIS Windows 2003 server are
logging in through individual accounts specifically assigned to them. Administrators are logging into the
system through a shared Administrator account rather than having each user assigned an individual ID so
that server actions can be tracked and user accountability can be established.

Smithsonian Directive (SD) 931, Use of Computers and Networks – Required Safeguards, states:

        To protect Smithsonian equipment and data, users are required to use safeguards that
        include - Prohibiting system administrators from establishing group accounts controlled
        by a single password.

In addition, Technical Standard and Guideline IT-930-02, Security Controls Manual, Section 3.1.1.2,
User IDs, states:

        User IDs must be unique to an individual; no group user ID’s are permitted. This control
        is essential for ensuring user accountability. System administrators will ensure that
        contractor and other non-staff personnel (e.g. interns and volunteers) have individual
        accounts and that these accounts are either set to expire at the end of the contract or
        internship, or that they are reviewed annually on the anniversary date of the establishment
        of the account to ensure that there is still a legitimate need for the account. Technical
        Note IT-960-TN10 specifies the procedures for User Creation Guidelines.

Further, Section 3.1.1.4, Generic or Group IDs, states:

        User accounts and ID’s must be unique to an individual. No group or shared accounts are
        permitted.

The use of shared or group accounts minimizes or eliminates the effectiveness of audit trails, because
actions cannot be tied back to a single individual. Individuals who use group accounts or share a single ID
could potentially perform unauthorized or inappropriate activities within the system that could not be tied
back to them.

Recommendation

        2. We recommend the DMIS system sponsor/owner require administrators to log into DMIS in
           accordance with Institution policy using individual accounts to enhance audit trails and user
           accountability.




                                                    5
Summary of Management Response

Management’s April 19, 2007, response to our draft report concurred with both recommendations to
strengthen the confidentiality, availability, and integrity of the information on DMIS and to enhance audit
trails and user accountability. The Director, Office of External Affairs agreed to fully implement standard
security configuration baselines within six months of receiving the latest operational release of Blade
Logic (a software delivery and configuration utility used for Windows servers) from OCIO. Management
also stated that it had established individual administrator accounts and that they were being used to
enhance audit trails and user accountability. The full text of management’s response is included in the
Appendix.

Office of the Inspector General Comments

Management has planned and taken actions that respond to our recommendations, and we consider them
resolved. In evaluating management’s response to this report, we conferred with the IT Security Director
and determined that the new version of Blade Logic was due to be released in July 2007. Therefore, we
have established a target completion date for Recommendation 1 as January 31, 2008, 6 months from the
date of the release. Additionally, OCIO should ensure that the POA&M is updated with the revised
completion data as well.

We appreciate the courtesy and cooperation of Smithsonian representatives during this evaluation. If you
have any questions concerning this report, please call me or Stuart Metzger at (202) 633-7050.




                                                     6
Appendix – Management Response




                                 7
